            versight

            eport

         REPORT ON QUALITY CONTROL REVIEW OF
               ARTHUR ANDERSEN, LLP, FOR
       OMB CIRCULAR NO. A-133 AUDIT REPORT OF THE
         HENRY M. JACKSON FOUNDATION FOR THE
          ADVANCEMENT OF MILITARY MEDICINE,
          FISCAL YEAR ENDED SEPTEMBER 30, 1998

Report Number D-2001-6-001           February 2, 2001


             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this report, visit the Inspector General, DoD, Home Page
 at www.dodig.osd.mil or contact the Secondary Reports Distribution Unit of the Audit
 Followup and Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
 (703) 604-8932.

 Suggestions for Future Evaluations

 To suggest ideas for or to request future audits or evaluation, contact the Audit Followup
 and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-
 8932. Ideas and requests can also be mailed to:

                      OAIG-AUD (ATTN: AFTS Audit Suggestions)
                       Inspector General, Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
by sending an electronic message to Hotline@dodig.osd.mil; or by writing to the Defense
Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and
caller is fully protected.




Acronyms
DCAA                 Defense Contract Audit Agency
GAGAS                Generally Accepted Government Auditing Standards
OMB                  Office of Management and Budget
                                                                              February 2, 2001


President
Henry M. Jackson Foundation for the Advancement of Military Medicine


Partner
Arthur Andersen, LLP


SUBJECT: Report on Quality Control Review
         of Arthur Andersen, LLP, for OMB Circular No. A-133 Audit Report of
         the Henry M. Jackson Foundation for the Advancement of Military Medicine,
         Fiscal Year Ended September 30, 1998
         Report No. D-2001-6-001 (Project No. D2000-OA-0169)

        We are providing this report for your review and comment. On December 15, 1998,
the firm of Arthur Andersen, LLP (Arthur Andersen), issued the single audit report for the
Henry M. Jackson Foundation for the Advancement of Military Medicine (the Foundation).
The Foundation, based in Rockville, Maryland, is a non-profit organization that was chartered
by Congress in 1983 to support military medical research and education and to promote public-
private partnerships in that area. The audit is required by the Office of Management and
Budget (OMB) Circular No. A-133, “Audits of States, Local Governments, and Non-Profit
Organizations,” (the Circular A-133). For the fiscal year ended September 30, 1998, the
Foundation reported total Federal expenditures of $63.9 million consisting of $53 million for
the DoD and $10.9 million for other Federal agencies.

Quality Control Review Objective. As the cognizant agency for the Foundation, the Office
of Inspector General, DoD, performed a quality control review to determine whether the
FY 1998 audit report that the Foundation submitted to the Single Audit Clearinghouse met the
applicable reporting standards and whether Arthur Andersen conducted the audit in accordance
with applicable standards and the Circular A-133. See Appendix A for a discussion of the
scope, prior quality control reviews related to Arthur Andersen, and single audit requirements.

Review Results. Arthur Andersen complied with the Circular A-133 in performing the audit
of the financial statements and in reporting on internal controls and compliance related to the
financial reporting. However, Arthur Andersen needed to improve the documentation and test
of internal controls for compliance with requirements applicable to the major programs




                                               1
(finding A). Moreover, the Foundation did not ensure that the single audit required by the
Circular A-133 was properly coordinated between Arthur Andersen and the Defense Contract
Audit Agency (DCAA) (finding B).

Finding A. Performance of FY 1998 Single Audit. Arthur Andersen provided a complete
reporting package that complied with the Circular A-133 for the financial statements and
related reporting requirements. However, Arthur Andersen needed to improve the planning
and execution of the review of compliance with requirements applicable to the major program.
In addition, the working papers needed to better document the work performed to support the
auditor conclusions on compliance with requirements.

       Review of Internal Control Over Compliance. The Arthur Andersen working papers
contained a general understanding of the Foundation's internal control system. Arthur
Andersen properly identified which of the 14 compliance requirements applied to the 3
sampled Federal awards under the Foundation’s major program, Research and Development.
Appendix A shows the 14 compliance requirements and those that applied to the Foundation
program. Arthur Andersen had an audit plan that assessed internal controls for financial
statements. However, Arthur Andersen did not separately review and document each of the 5
components of internal control (control environment, risk assessments, control activities,
information and communication, and monitoring) in general or for the 10 applicable
compliance requirements.

               Both generally accepted auditing standards and the generally accepted
government auditing standards (GAGAS) require that to plan the audit, the auditor perform
certain procedures in order to understand the design of controls and to determine whether the
controls have been implemented. The Circular A-133 and the Compliance Supplement
(Supplement) require the auditor to identify which of the 14 compliance requirements apply to
the major programs and to evaluate the 5 components of internal control for each applicable
requirement. The understanding obtained from this assessment must be documented in the
working papers to support the audit plan.

               The Arthur Andersen standard audit program did not include steps for reviewing
the five components separately for each relevant compliance requirement. However, Arthur
Andersen relied heavily on guidance provided by the Supplement when auditing each
applicable compliance requirement. Therefore, the audit planning deficiencies were partially
offset by the method used to execute the actual audit work. Arthur Anderson can ensure a
more efficient and adequate audit by assessing, as part of its planning process, the five
components of internal control.

        Review of Internal Control Over Compliance Requirements. The working papers
contained some evidence that testing of controls was performed; however, the working papers
did not contain a sufficient description of the sampling plan or documentation of the testing
done as required by GAGAS.




                                              2
                Documentation of Sampling Plan. The working papers did not explain which
specific testing methodology or criteria for each transaction reviewed was used to determine
when the cost was allowable under the OMB Circular No. A-122, “Cost Principles for Non-
Profit Organizations.” Therefore, we in turn could not determine which of the specific
procedures were applied to test each Federal award. Specifically, the working papers did not
include sufficient information on the sampling plan to support its use in fulfilling the
compliance requirement testing on cost allowability. The Arthur Andersen sampling objectives
were not specific and did not identify whether a cost was charged directly or indirectly, and
whether it was for materials, overhead, or labor. The sampling plan did not identify the
allowability criteria in OMB Circular No. A-122 that was being tested. The sampling plan
should have identified the population and its characteristics for testing cost allowability.

                Documentation of Compliance Testing. Compliance requirement testing
consists of examining transactions to provide auditors with sufficient evidence to support an
opinion on compliance. Of the 10 applicable compliance requirements audited, we re-tested 3.
The working papers for one of the three, “Reporting,” included sufficient documentation to
support the audit conclusion. However, the working papers for the other two compliance
requirements, “activities allowed/unallowed” and “allowable costs/cost principles,” did not
adequately document the work performed. GAGAS requires that the form and content of the
working papers should allow an experienced auditor to determine the evidence that supports
the auditor’s significant conclusions and judgments.

              In general, the working papers should document the objectives, scope, and
methodology, including the sampling criteria the auditors used. We could not determine the
adequacy of the work performed because insufficient evidence existed in the working papers to
support the audit judgments and conclusions. The working papers contained only a check
number identifying what was tested. Specifically, the working papers should also identify the
Federal award number, name and type (such as grant, cooperative agreement or contract) and
voucher documents reviewed (such as an invoice or purchase order).

               In addition, the working papers should include an adequate description of
transactions tested, such as showing the type of cost (labor, material, or overhead), its amount,
and date/time period, as well as whether it was charged directly or indirectly.

               However, through re-testing selected compliance requirements, we were able to
draw the same conclusions as Arthur Andersen. Therefore, we accepted the audit conclusions
despite the inadequate documentation.

Summary. Arthur Andersen’s working papers were insufficient to support their conclusions
concerning compliance with requirements. However, through re-testing and other means, we
were able to obtain reasonable assurance of the conclusions drawn by Arthur Andersen. In
conducting future single audits, Arthur Anderson should:

       •      review and document the five internal control components for each applicable
              compliance requirement;


                                                3
       •      properly document any sampling plan used; and
       •      adequately document the tests performed on the compliance requirements
              including criteria, judgments, and conclusions.

Recommendations

       A. We recommend that Arthur Andersen, LLP:

               1. Revise its audit program for the single audit to comply with the requirements
of the Circular A-133 to include audit steps that document an understanding of the 5 internal
control elements related to each of the applicable 14 compliance requirements.

               2. Improve the working papers by documenting its judgments, procedures, and
results or conclusions with relevant and sufficient evidence, including the sampling plan.

Finding B. Coordination of Single Audit. The Foundation should better coordinate the
single audit. Although Arthur Andersen relied on the DCAA audit of indirect cost and cost
allocations as support for the review of compliance with requirements, better coordination
would result in more efficient and economical use of each audit organization's work. The
Single Audit Act and the Circular A-133 require that audits be planned in such a way as to
build on audit work performed by others.

        Coordination Between Audit Organizations. In November 1998, the Foundation
engaged Arthur Andersen to provide all FY 1998 audit services required to meet the intent of
the Circular A-133. The Arthur Andersen engagement letter did not mention coordination of
the single audit work with DCAA. The DCAA also performed work at the Foundation on the
allowability of direct costs and indirect cost rates for establishing negotiated carryforwards as
part of an incurred cost review. However, neither the DCAA nor the Arthur Andersen
working papers documented any coordination between the audit organizations to determine the
work each should perform so that they could rely on each other’s work, avoid possible
duplication of effort, and better fulfill the Circular A-133 requirements.

        Despite the lack of pre-audit coordination, Arthur Andersen, after reviewing DCAA
audit files, relied on DCAA audit work relating to indirect cost allocations. However, both
audit organizations did testing of the "allowable cost/cost principles" requirement. Although
DCAA reviewed Arthur Andersen working papers for the allowable cost/cost principles
requirements, they were unable to totally use the already completed work because of
inadequate documentation.

        In addition, Arthur Andersen did not identify additional pertinent DCAA audit work
that they could have relied on. On September 30, 1998, DCAA issued a report on “Audit of
Contractor's Timekeeping System.” The audit reviewed the allocability of labor costs to
appropriate cost objectives and could have been relied on by Arthur Anderson to support its
acceptance of the Foundation labor costs. Without the DCAA audit report, the Arthur



                                                4
Appendix A. Quality Control Review Process

Scope and Methodology
    We conducted a quality control review of Arthur Anderson, LLP, audit of the Henry
    M. Jackson Foundation for the Advancement of Military Medicine (Foundation) for the
    fiscal year ended September 30, 1998, and the resulting reporting submission to the
    Single Audit Clearinghouse dated March 11, 1999. We performed our review using the
    1999 edition of the “Uniform Quality Control Guide for the A-133 Audits” (the Guide).
    The Guide applies to any single audit that is subject to the requirements of OMB
    Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations,”
    revised June 24, 1997 (the Circular A-133). The Guide is the approved checklist of the
    President’s Council on Integrity and Efficiency for performing the quality control
    review procedures. We reviewed the audit as required by the Circular A-133, GAGAS
    issued by the Comptroller General of the United States, and generally accepted auditing
    standards issued by the American Institute of Certified Public Accountants. Our review
    was conducted from May 2000 through January 2001 and covered areas related to the
    financial statements and a major program, categorized as a cluster program of research
    and development. As the cognizant audit agency for the Foundation, we focused our
    review on the following qualitative aspects of the single audit:

           •   Qualifications of auditors
           •   Independence
           •   Due professional care
           •   Quality control
           •   Planning and supervision
           •   Internal control and compliance testing
           •   Schedule of Expenditures of Federal Awards
           •   Schedule of Findings and Questioned Costs
           •   Data Collection Form


Prior Quality Control Reviews
    We performed one quality control review for FY ending 1993 that concluded the audit
    satisfied the Circular A-133 requirements. We also did three desk reviews for FYs of
    1991, 1995, and 1996, with no reportable conditions.




                                           6
Single Audit Requirements
      The Circular A-133 establishes policies to guide implementation of the Single Audit Act
      1984 (Public Law 98-502) and the Single Audit Act Amendments of 1996 (Publication
      104-156). The Circular A-133 provides an administrative foundation for uniform audit
      requirements for non-Federal entities that administer Federal awards. In addition, the
      Circular A-133 serves to ensure that Federal departments and agencies rely on and use
      the audit work to the maximum extent practicable. To meet the intent of the law and
      the Circular A-133, a complete reporting package on each single audit is submitted to
      the Single Audit Clearinghouse from the auditee (non-Federal entity) that includes the
      following:

             •   Data collection form certified by the auditee that the audit was completed
                 according to the OMB Circular A-133;
             •   Financial statements and related opinion;
             •   Schedule of Expenditures of Federal Awards and related opinion;
             •   Report on internal control and compliance review related to the financial
                 statements;
             •   Report on internal control over compliance and on compliance with laws,
                 regulations, and the provisions of contracts or grant agreements, and related
                 opinion on compliance of major programs; and
             •   Schedule of Findings and Questioned Costs.

      OMB issues a Compliance Supplement (the Supplement) annually. The Supplement
      assists the auditors in determining the audit scope for the Circular A-133 requirements
      for review of internal control. For each compliance requirement, the Supplement
      describes the objectives of internal control and certain characteristics that when present
      and operating effectively may ensure compliance with program requirements. The
      Supplement gives examples of the common characteristics for the five components of
      internal control (control environment, risk assessment, control activities, information
      and communication, and monitoring) for each compliance requirement. The following
      14 compliance requirements applicable to the various Federal programs are identified in
      the Supplement:
                                                     *
      A.         Activities Allowed/Unallowed            H.   Period of Availability of Federal Funds
      *                                              *
        B.       Allowable Costs/Cost Principles         I.   Procurement and Suspension and
      *
        C.       Cash Management                              Debarment
      *                                              *
        D.       Davis-Bacon Act                         J.   Program Income
        E.       Eligibility of Federal Funds            K.   Real Property Acquisition/Relocation
      *
        F.       Equipment and Real Property                  Assistance
                                                     *
                 Management                            L.     Reporting
       G.        Matching, Level of Effort,            M.     Subrecipient Monitoring
                                                     *
                 Earmarking                            N.     Special Tests and Provisions

* Compliance requirements applicable to reviewed Federal awards at the Henry M. Jackson
Foundation.
                                             7
Appendix B. Report Distribution
Mr. Ben Bernstein, Director of Accounting       Department of Energy
Henry M. Jackson Foundation for the             Office of Inspector General
  Advancement of Military Medicine              ATTN: Single Audit Contract
1401 Rockville Pike, Suite 600                           IG-33, Rm 5A-193
Rockville, MD 20852                             1000 Independence Ave., SW
                                                Washington, DC 20585
Mr. Robert C. Kovarik, Partner
Arthur Andersen, LLP                            HHS OIG National External
8000 Towers Crescent Drive                        Audit Resources
Vienna, VA 22182                                Lucas Place
                                                323 West 8th Street, Room 514
Mr. Lawrence Uhlfelder                          Kansas City, MO 64105
Assistant Director, Policy and Plans
Defense Contract Audit Agency                   NASA Office of Inspector General
8725 John J. Kingman Road, Suite 2353           NASA Headquarters, Code W
Fort Belvoir, VA 22060-6219                     Washington, DC 20546-0001

Director                                        Office of Inspector General
Defense Contract Management Agency              National Science Foundation
8725 John J. Kingman Road, Suite 4539           Assistant Inspector General for Audit
Fort Belvoir, VA 22060-3060                     4201 Wilson Boulevard, Suite 1135
                                                Arlington, VA 22230
Naval Medical Research Center
Forest Glen Annex                               Director
503 Robert Grant Rd.                            Planning and Operational
Silver Spring, MD 20910-7500                       Support Division (52P)
                                                Department of Veterans Affairs
U.S. Army Soldiers Systems Command              810 Vermont Ave., NW
Acquisition Directorate                         Washington, DC 20420
Natick, MA 01760-5011
                                                Regional Inspector General for Auditing
Uniformed Services University of the            General Services Administration
   Health Science                               Washington Field Audit Office (JA-W)
c/o Contract Dept. Mr. Denton                   7th & D Street SW, Room 1064
4301 Jones Bridge Road                          Washington, DC 20407
Bethesda, MD 20814-4799
                                                Defense Contract Audit Agency
                                                Columbia Branch Office
                                                One Mall North, Suite 200
                                                1025 Governor Warfield Parkway
                                                Columbia, MD 21044


                                            8
Evaluation Team Members

The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report are listed below.

Wayne C. Berry
Diane H. Stetler
Martin I. Gordon
